TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         All Individual Tax Returns Filed
                     Electronically in the 2013 Filing Season
                            Were Processed Using the
                            Modernized e-File System



                                      September 27, 2013

                              Reference Number: 2013-40-131




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2 = Risk Circumvention of Agency Regulation or Statute



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


ALL INDIVIDUAL TAX RETURNS FILED                       sample of 560 Forms 1040 tax returns received
ELECTRONICALLY IN THE 2013 FILING                      by the IRS from January 30, 2013, through
SEASON WERE PROCESSED USING                            May 4, 2013, found that 558 tax returns (99.6
THE MODERNIZED E-FILE SYSTEM                           percent) were processed correctly. TIGTA
                                                       found that the MeF system did not identify the
                                                       remaining two tax returns for taxpayers who
Highlights                                             appeared to have a requirement to pay
                                                       self-employment tax but did not pay it.
Final Report issued on                                 Further review of the tax returns with qualifying
September 27, 2013                                     self-employment income on Schedule C, Profit
                                                       or Loss From Business, filed from January 27
Highlights of Reference Number: 2013-40-131            through June 29, 2013, for which the taxpayer
to the Internal Revenue Service Commissioner           did not pay self-employment tax, identified
for the Wage and Investment Division.                  11,700 taxpayers with more than $12 million in
                                                       self-employment income for whom IRS records
IMPACT ON TAXPAYERS                                    showed that they were not exempt from paying
The Modernized e-File (MeF) system replaced            self-employment tax. TIGTA estimates that the
the Legacy e-File system as the primary                self-employment tax that should have been paid
electronic filing (e-filing) platform for individual   by these individuals totaled more than
tax returns during the 2013 Filing Season. The         $1.4 million.
MeF system provides real-time processing of tax        WHAT TIGTA RECOMMENDED
returns and extensions that will improve error
detection, standardize business rules, and             TIGTA recommended that the Commissioner,
expedite tax return acknowledgments to                 Wage and Investment Division, revise the Error
taxpayers. The IRS successfully transferred            Resolution Program to identify and correspond
the processing of all e-filed tax returns to the       with all taxpayers who claim qualifying
MeF system during the 2013 Filing Season.              self-employment income but no corresponding
                                                       self-employment tax is paid, and there is no
WHY TIGTA DID THE AUDIT                                indication that the taxpayer has an exemption
This audit was initiated to determine whether the      from paying the tax to obtain a Schedule SE,
IRS successfully transitioned e-filing of individual   Self-Employment Income. The Commissioner,
tax returns to the MeF system for the 2013 Filing      Wage and Investment Division, should also
Season. The objective of this review was to            initiate a program to correspond with the
determine whether the MeF system received,             11,700 taxpayers TIGTA identified to obtain a
processed, and posted individual tax return            Schedule SE and ensure that the proper amount
information timely, accurately, and effectively.       of self-employment tax is assessed.
                                                       In their response to the report, IRS management
WHAT TIGTA FOUND
                                                       agreed with our first recommendation and stated
The IRS successfully transitioned the processing       that it plans to review existing processes and
of all e-filed individual income tax returns           consider reducing the tolerances to address
through the MeF system for the 2013 Filing             more taxpayers who claim qualifying
Season. As of May 4, 2013, the IRS received            self-employment tax with no tax paid and no
approximately 129 million e-filed Tax Year 2012        indication of an exemption. The IRS did not
Forms 1040, U.S. Individual Income Tax Return.         agree with our second recommendation to
The IRS accepted approximately 114 million             correspond with the 11,700 taxpayers TIGTA
(88 percent) of the 129 million tax returns and        identified. However, the IRS plans to consider
rejected more than 15 million (12 percent) tax         cost-effective alternatives to provide for optimal
returns.                                               coverage at the time tax returns are processed.
The MeF system processed most tax returns
correctly. Our review of a statistically valid
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 27, 2013


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – All Individual Tax Returns Filed Electronically in
                             the 2013 Filing Season Were Processed Using the Modernized e-File
                             System (Audit # 201340011)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) Modernized e-File system received, processed, and posted individual tax return
 information timely, accurately, and effectively. This is the seventh in a series of audits that we
 have performed since 2009 tracking the growth and maturity of this processing system. This
 review is included in our Fiscal Year 2013 Annual Audit Plan and addresses the major
 management challenge of Modernization.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me if you have questions or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).
                      All Individual Tax Returns Filed Electronically in the 2013 Filing
                       Season Were Processed Using the Modernized e-File System




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Individual Tax Returns Were Processed Using the
          Modernized e-File System ............................................................................ Page 5
          Most Electronically Filed Tax Returns Were Processed
          Correctly; However, Errors in Taxpayers’ Reporting of
          Self-Employment Tax Were Not Always Identified .................................... Page 9
                    Recommendations 1 and 2: .............................................. Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measures............................................................... Page 17
          Appendix V – Management’s Response to the Draft Report ....................... Page 19
              All Individual Tax Returns Filed Electronically in the 2013 Filing
               Season Were Processed Using the Modernized e-File System




                               Abbreviations

e-file(d), e-filing     Electronically file(d); electronic filing
IRS                     Internal Revenue Service
MeF                     Modernized e-File
TIGTA                   Treasury Inspector General for Tax Administration
TRDB                    Tax Return Database
                   All Individual Tax Returns Filed Electronically in the 2013 Filing
                    Season Were Processed Using the Modernized e-File System




                                             Background

The Modernized e-File (MeF) system is an Internet-based electronic filing (e-filing) platform
that replaced the Internal Revenue Service’s (IRS) prior e-filing system, referred to as the
Legacy e-File system. The MeF system provides a single method for filing business and
individual tax returns, forms, and schedules via the Internet. The system provides real-time
processing of tax returns, improves error detection, standardizes business rules, and expedites tax
return acknowledgements to taxpayers. The MeF system also allows taxpayers to submit
supporting documents in a Portable Document Format1 with their tax return.

Individual tax returns processed through the MeF system must pass validation
rules to be accepted for processing
The MeF system uses three levels of validation for processing acceptance. Once a tax return has
passed all three levels of validation, it will enter the IRS’s tax return processing stream. The
three levels of validation include:
        Level 1 – Schema Validation – A MeF system tax return is divided into a series of
         different data structures. Schemas provide the basic definitions for the data elements
         within each data structure and the interrelationships among the data elements (e.g., what
         is required, field length, data type, and allowable field values). The MeF system verifies
         the accuracy of the data format in the tax return by validating each tax return against the
         individual schemas. If an error is found during the schema validation, the tax return is
         rejected.
        Level 2 – National Account Profile2 Checks – The taxpayer, spouse, and dependent name
         controls and Social Security Numbers contained on the tax return must match the
         information on the National Account Profile before the IRS will accept the tax return for
         processing. The MeF system conducts the same basic verification as the Legacy e-File
         system. As with schema validations, a tax return is rejected if it fails one or more of the
         National Account Profile validations.
        Level 3 – Business Rule Check – The IRS establishes criteria or business rules that each
         tax return must pass before it can be processed electronically. The business rules are
         designed to validate basic requirements on a tax return, such as income limits for tax


1
  A file format for representing documents in a manner that is independent of the original application software,
hardware, and operating system used to create those documents.
2
  A compilation of selected entity data from the IRS Master Files, which are the databases that store various
taxpayer information. The National Account Profile includes all valid and invalid taxpayer entity information.
                                                                                                              Page 1
                  All Individual Tax Returns Filed Electronically in the 2013 Filing
                   Season Were Processed Using the Modernized e-File System



        credits and deductions and the need to attach a specific schedule if certain conditions are
        present on the tax return. A tax return will be rejected if one or more of the business
        rules are not met.

Implementation of individual tax return processing using the MeF system
occurred over a three-year period
Prior to the 2013 Filing Season,3 the IRS accepted e-filed tax returns using both the Legacy
e-File and MeF systems. The IRS implemented the MeF system for the processing of e-filed
individual tax returns in three phases beginning with the 2010 Filing Season.
       Phase I – Included accepting Form 1040, U.S. Individual Income Tax Return; Form 4868,
        Application for Automatic Extension of Time To File U.S. Individual Income Tax Return;
        and 21 forms and schedules related to the Form 1040 for Tax Year4 2009 for Mef
        processing. The IRS first began accepting individual tax returns through the MeF system
        in February 2010.
       Phase II – Implemented during the 2011 Filing Season, it did not provide for the filing of
        any additional tax forms or schedules other than those that could be filed in the first
        phase. The primary difference between the first and second phase was that, in the second
        phase, prior year returns of individual taxpayers could be filed using the Mef system. For
        example, for the 2011 Filing Season, individual taxpayers were able to file both their Tax
        Year 2009 and Tax Year 2010 tax returns using the MeF system.
       Phase III – Implemented during the 2012 Filing Season. This phase included
        129 individual tax forms for Tax Year 2011 and prior year processing support for the
        original forms deployed in the first and second phases.

The Treasury Inspector General for Tax Administration (TIGTA) performed annual
reviews to assess each phase of IRS’s implementation of the MeF system
TIGTA conducted reviews to evaluate each phase of the IRS’s continued implementation of the
MeF system. These reviews assessed whether individual income tax returns were processed
accurately and timely and whether sufficient progress was made to replace the Legacy e-File
system for the 2013 Filing Season. Figure 1 details issues reported and recommendations made.




3
 The period from January through mid-April when most individual income tax returns are filed.
4
 A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                         Page 2
                      All Individual Tax Returns Filed Electronically in the 2013 Filing
                       Season Were Processed Using the Modernized e-File System



        Figure 1: TIGTA Reviews of the IRS’s Implementation of the MeF System

 Audit Report
   Number                          Audit Findings                                 Recommendations

 2010-40-1115     o    The MeF system was rejecting tax returns in     o   Establish processes to analyze data
                       error or not providing an accurate                  to identify trends that may indicate
                       explanation as to why the tax return was            errors in tax return processing and
                       rejected.                                           ensure that the explanation provided
                                                                           for rejecting a tax return is accurate.
                  o    The IRS was unable to assess the system’s
                       capability to handle large volumes of tax       o   Work with transmitters and States to
                       returns as a result of the low volume of tax        address participation concerns.
                       returns received through the MeF system.

 2011-40-1316     o    Processes used to test and monitor the MeF      o   Test a variety of tax return types and
                       system did not ensure that MeF system               volumes to simulate the production
                       business rules were working as intended.            volume expected during the
                                                                           2012 Filing Season.
                  o    Lower than expected tax return volumes
                       raised concerns regarding the IRS’s ability     o   Continue to work with transmitters
                       to replace the Legacy e-File system for the         and States to identify and address
                       2013 Filing Season.                                 participation concerns.
                  o    The IRS had not pursued the use of the          o   Promote the benefits of the MeF
                       MeF system as an option to scan and attach          system Portable Document Format
                       supplemental information to tax returns.            feature to include attachments.

 2012-40-1167     o    The MeF system had not shown that it could     o    Ensure that the MeF system can
                       consistently process large volumes of tax           timely and accurately process the
                       returns for an extended period.                     anticipated number of individual tax
                                                                           returns it expects to receive in a
                  o    Issues identified during testing were not
                                                                           single filing season before
                       always addressed prior to processing.
                                                                           discontinuing the use of the Legacy
                  o    Processes to validate and monitor the MeF           e-File system.
                       system did not ensure accuracy.
                                                                      o    Enhance test procedures based on
                                                                           lessons learned.

Source: TIGTA Internet website at www.treasury.gov/tigta.




  5
    TIGTA, Ref. No. 2010-40-111, System Errors and Lower Than Expected Tax Return Volumes Affected the
  Implementation of the Modernized e-File System for Individual Tax Return Processing (Sept. 2010).
  6
    TIGTA, Ref. No. 2011-40-131, Low Participation and Tax Return Volumes Continue to Hinder the Transition of
  Individual Income Tax Returns to the Modernized e-File System (Sept. 2011).
  7
    TIGTA, Ref. No. 2012-40-116, While Use of the Modernized e-File System for Individual Tax Returns Has
  Increased, the Legacy e-File System Is Still Needed As a Backup (Sept. 2012).
                                                                                                        Page 3
                All Individual Tax Returns Filed Electronically in the 2013 Filing
                 Season Were Processed Using the Modernized e-File System



This review was performed at the Wage and Investment Division’s Office of Submission
Processing in Atlanta, Georgia, and the Information Technology Office of Applications
Development in New Carrollton, Maryland, during the period October 2012 through July 2013.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 4
                   All Individual Tax Returns Filed Electronically in the 2013 Filing
                    Season Were Processed Using the Modernized e-File System




                                       Results of Review

Individual Tax Returns Were Processed Using the Modernized e-File
System
The IRS successfully transitioned the processing of all e-filed individual income tax returns to
the MeF system for the 2013 Filing Season. As of May 4, 2013, the IRS received approximately
129 million e-filed Tax Year 2012 Forms 1040. The IRS accepted approximately 114 million
(88 percent) and rejected more than 15 million (12 percent) tax returns. Figure 2 shows the
number of Forms 1040 the IRS received through the MeF system in Processing Years8 2010
through 2013 as of May 4 for each year.
                     Figure 2: Forms 1040 Processed via the MeF System
                      Processing Years 2010 Through 2013 9 (as of May 4)

         Forms 1040               2010              2011              2012           2013

         Transmitted            825,602          9,215,187        76,113,569     128,953,215

          Accepted              672,898          7,994,819        66,674,569     113,626,952

           Rejected             152,704          1,220,368         9,439,000     15,326,263

        Source: IRS tax return processing reports for e-filed tax returns. 

In addition to receiving Tax Year 2012 Forms 1040, the IRS received (as of May 4, 2013):
        7.8 million Forms 4868.
        74.6 million State income tax returns. The IRS partners with States to allow taxpayers to
         e-file both their Federal and State income tax returns at the same time. The IRS receives
         the State income tax returns and forwards them on to the specific States for processing.
        91,272 prior year tax returns.




8
 The calendar year in which the tax return or document is processed by the IRS.
9
 During the 2010 and 2011 Filing Seasons, MeF system processing of individual tax returns only supported the
Form 1040, Form 4868, and 21 forms and schedules related to Form 1040.
                                                                                                         Page 5
                   All Individual Tax Returns Filed Electronically in the 2013 Filing
                    Season Were Processed Using the Modernized e-File System



The performance of the MeF system improved—no tax returns were processed
using the Legacy e-File system during the 2013 Filing Season
In our September 2012 report,10 we concluded that the MeF system had not shown that it could
consistently process large volumes of tax returns for an extended period of time. Although the
IRS significantly increased the volume of tax returns processed through the MeF system during
the 2012 Filing Season, the volume of tax returns received was less than anticipated as a result of
performance issues and programming errors. For example, on at least two different occasions in
the 2012 Filing Season, the IRS had to suspend MeF system processing to correct system
performance and programming issues, which resulted in delays in the processing of individual
tax returns. In February 2012, due to programming issues, the IRS announced that transmitters
were allowed to use either the MeF or Legacy e-File systems.
The Legacy e-File system was maintained as a contingency for the 2013 Filing Season
In response to our September 2012 report, the IRS agreed to maintain the Legacy e-File system
as a contingency should the MeF system experience significant delays in processing tax returns
during the 2013 Filing Season. The IRS indicated that the Legacy e-File system would be used
during the 2013 Filing Season if the MeF system experienced outages exceeding 48 hours.
Although the IRS experienced intermittent delays in the MeF system’s processing of tax returns
during the 2013 Filing Season, none of these delays exceeded the 48-hour criteria requiring the
processing of e-filed tax returns using the Legacy e-File system.
The delays in MeF system processing during the 2013 Filing Season were minimal. For
example, apart from the scheduled downtime for system maintenance, the IRS took the MeF
system offline11 eight times from February 12, 2013, through April 15, 2013, to address
performance issues. Figure 3 shows the dates the MeF system was taken offline and the duration
of time the system was unavailable.




10
   TIGTA, Ref. No. 2012-40-116, While Use of the Modernized e-File System for Individual Tax Returns Has
Increased, the Legacy e-File System Is Still Needed As a Backup (Sept. 2012).
11
   The MeF system was not available for tax return transmitters to send tax returns to the IRS or retrieve tax return
acknowledgements.
                                                                                                               Page 6
                  All Individual Tax Returns Filed Electronically in the 2013 Filing
                   Season Were Processed Using the Modernized e-File System



            Figure 3: Date and Duration of MeF System Intermittent Delays
                       February 12, 2013, Through April 15, 2013

                                                              Duration Offline
                                    Date
                                                                   (in hours)

                           February 12, 2013                          3.5

                           February 13, 2013                           4

                           February 21, 2013                           4

                           February 24, 2013                           1

                           February 26, 2013                           2

                           March 7, 2013                               4

                           March 15, 2013                              5

                           April 7, 2013                              12
                       Source: TIGTA analysis of IRS Quick Alerts and Knowledge,
                       Incident/Problem, Service and Asset Management production tickets.12

The longest intermittent delay occurred on April 7, 2013. The IRS took the MeF system offline
for scheduled maintenance but was unable to restart the system when planned. IRS management
informed us that the inability to restart the system resulted from errors in the way the MeF
system was shut down prior to performing the maintenance. However, the IRS successfully
moved MeF processing to its disaster recovery platform and was able to resume processing of
tax returns using the MeF system within about 12 hours of the system being taken offline.
In April 2013, TIGTA reported13 that MeF system infrastructure changes were on track to deliver
improvements in performance and reliability for the 2013 Filing Season because the IRS had
taken steps to address MeF system performance issues identified during the 2012 Filing Season.
We also reported that the IRS was implementing expanded monitoring tools to improve its
ability to monitor and measure MeF system availability. According to the IRS, these new
monitoring tools allowed it to identify performance issues that had the potential to result in
significant system delays earlier than in prior years and address those issues before they
significantly affected the MeF system’s ability to receive and accept tax returns.

12
   Knowledge, Incident/Problem, Service and Asset Management production tickets are used to help troubleshoot
computer system problems and report problem resolution status.
13
   TIGTA, Ref. No. 2013-20-039, Enhancements Made to the Modernized e-File System in Release 8 Should
Improve System Performance for the 2013 Filing Season (Apr. 2013).
                                                                                                        Page 7
                   All Individual Tax Returns Filed Electronically in the 2013 Filing
                    Season Were Processed Using the Modernized e-File System



Improvements are needed to ensure timely acknowledgement of tax returns and
to ensure the accuracy of prior year tax return information included in the Tax
Return Database14
While the IRS successfully transitioned the processing of all individual tax returns to the MeF
system, it should continue its efforts to improve MeF system performance. Our analysis of MeF
system performance during the 2013 Filing Season identified two areas where improvements are
needed:
        Tax return acknowledgements are still slower than expected. Taxpayers who e-file
         their tax return receive an acknowledgement from the IRS when their tax return has been
         accepted for processing. The IRS strives to issue tax return acknowledgements to
         taxpayers within five minutes of receipt of the tax return during nonpeak processing
         periods and within two hours during peak processing periods.15 Although the MeF
         system processed the majority of e-filed tax returns within the IRS’s established
         processing time periods, the system has not yet achieved the IRS’s expectations for
         issuing tax return acknowledgements. The IRS issued alerts to tax return transmitters
         several times throughout the filing season indicating that MeF acknowledgements were
         slow. In addition, it took the IRS several days to issue all of the acknowledgements for
         the tax returns transmitted to the IRS during the period when the MeF system was down
         on April 7, 2013.
        Rejected prior year tax returns are incorrectly shown as Tax Year 2012 tax returns
         in the Tax Return Database (TRDB). The TRDB contains limited information on tax
         returns that are rejected by the MeF system. This information can be used by IRS
         employees to assist taxpayers who contact the IRS with questions about their tax return.
         Our analysis of a statistically valid sample of 100 of the 23,108 prior year tax returns
         rejected by the MeF system between the period January 30, 2013, through May 4, 2013,
         showed that all 100 returns were incorrectly recorded in the TRDB as Tax Year 2012 tax
         returns—93 were Tax Year 2011 and seven were Tax Year 2010 tax returns. It should be
         noted that the tax period for all of the rejected tax returns is correctly recorded in the MeF
         database. We notified the IRS of our concerns on May 16, 2013. According to the IRS, a
         programming error caused the tax year for all tax returns input to the TRDB to be Tax
         Year 2012. As a result, prior year tax returns were incorrectly shown as Tax Year 2012
         tax returns. IRS management informed us that the TRDB programming was corrected on
         August 1, 2013, to capture the actual tax year for a tax return. In addition, IRS
         management indicated that the IRS has corrected the tax year in the TRDB for tax returns
         filed prior to August 1, 2013, to reflect the correct tax year.

14
  The TRDB contains tax return source information for all electronically filed tax returns.
15
  The term “peak” refers to the period of time in which the return volume increases for a specific form family. For
Form 1040, there is a spike (or mini peak) in volume in January and early February. The major peak periods center
on the April 15 deadline and October 15 extension deadline.
                                                                                                            Page 8
                  All Individual Tax Returns Filed Electronically in the 2013 Filing
                   Season Were Processed Using the Modernized e-File System



Most Electronically Filed Tax Returns Were Processed Correctly;
However, Errors in Taxpayers’ Reporting of Self-Employment Tax
Were Not Always Identified
We obtained an extract of approximately 118 million Forms 1040 from the MeF system
(including both accepted and rejected returns) that were received by the IRS from January 30
through May 4, 2013.16 Our review of a statistically valid sample of 560 of the almost
118 million tax returns showed that 558 (99.6 percent) tax returns were processed correctly. For
the remaining two tax returns, we found that the individuals appear to have a requirement to pay
self-employment tax, yet no self-employment tax was paid. MeF system business rules do not
identify for further review tax returns that appear to have a self-employment tax liability but no
tax is paid.
We identified 179,362 taxpayers who filed a tax return through the MeF system from
January 27, 2013, through June 29, 2013, with an attached Schedule C, Profit or Loss From
Business, and qualifying self-employment income,17 yet no self-employment tax was paid. Our
analysis identified that 11,700 of the taxpayers were not identified as part of the Error Resolution
Program. These taxpayers claimed more than $12 million in qualifying self-employment
income, but no self-employment tax was paid and there was no indication that the taxpayer was
exempt from the tax. We estimate that these 11,700 taxpayers potentially owe more than
$1.4 million in self-employment tax. The following is a hypothetical example of the tax returns
we identified.
        Taxpayer A files a tax return showing net self-employment income on Schedule C
        totaling $1,000. Taxpayer A is subject to self-employment tax on the $1,000 in
        net income because the income exceeds the minimum net self-employment income
        that is subject to the tax. However, Taxpayer A did not file a Schedule SE,
        Self-Employment Tax, showing self-employment tax. In addition, Taxpayer A
        did not indicate on the Schedule C that he or she was exempt from paying
        self-employment tax and IRS records do not indicate that Taxpayer A has an
        approved exemption from paying self-employment tax.
Most taxpayers who report qualifying self-employment income from a business on Schedule C
are required to pay self-employment tax and should include Schedule SE with their tax return.
However, some taxpayers are exempt from the self-employment tax requirement. For example,
taxpayers who are considered a statutory employee are exempt from self-employment tax on


16
   Our analysis is based on tax returns contained in a data subset within the MeF system. As a result of timing
delays in updating this subset, we were unable to obtain information for all of the approximately 129 million
Forms 1040 that the IRS received during this same period.
17
   Individuals must earn $434 or more in net self-employment income before being required to pay self-employment
tax.
                                                                                                        Page 9
                   All Individual Tax Returns Filed Electronically in the 2013 Filing
                    Season Were Processed Using the Modernized e-File System



their wages because their employer withholds Social Security and Medicare taxes. Statutory
employees are individuals who work for an employer but the employer does not withhold
Federal income tax from their wages.18 Statutory employees generally report their Form W-2,
Wage and Tax Statement, wages on Schedule C along with their business expenses. Statutory
employees should have the “statutory employee” box checked on the employer-provided
Form W-2. In addition, statutory employees should check the “statutory employee” box on
Schedule C when they file their tax return. Other taxpayers who may be exempt from
self-employment tax include:
        Ordained, commissioned, or licensed ministers of a church.
        Members of religious orders who have not taken a vow of poverty.
        Christian Science practitioners.
        Members of recognized religious groups.
The taxpayers previously described must apply to the IRS for exemption by filing a Form 4361,
Application for Exemption From Self-Employment Tax for Use by Ministers, Members of
Religious Orders and Christian Science Practitioners, or Form 4029, Application for Exemption
From Social Security and Medicare Taxes and Waiver of Benefits. Once approved, the IRS
notates the taxpayer’s tax account to show the self-employment tax exemption. None of the
11,700 taxpayers we identified notated their tax return as being exempt from paying the
self-employment tax.
IRS Error Resolution Program procedures identify tax returns that claim net self-employment
income above an established dollar amount when no self-employment tax is paid. The IRS
corresponds with the taxpayer to obtain the missing Schedule SE. If the taxpayer does not
provide the missing schedule, the tax return is referred to the Examination function for a
potential audit. The IRS does not identify tax returns with net self-employment income below
the established dollar amount. Using these criteria, we determined that the IRS would not have
identified 11,700 (12 percent) taxpayers who do not appear to be exempt from paying
self-employment tax but did not pay the tax. These taxpayers claimed more than $12 million in
qualifying self-employment income and potentially owe more than $1.4 million in
self-employment tax.




18
  Statutory employees include agent drivers and commission drivers, full-time life insurance sales agents,
individuals who work at home, and traveling or city salespersons.
                                                                                                             Page 10
               All Individual Tax Returns Filed Electronically in the 2013 Filing
                Season Were Processed Using the Modernized e-File System



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Revise the Error Resolution Program to identify and correspond with all
taxpayers who claim qualifying self-employment income where no tax is paid and there is no
indication that the taxpayer has an exemption from paying the tax to obtain a Schedule SE.
       Management’s Response: The IRS agreed with this recommendation. IRS
       management will review existing processes within the Error Resolution Program and
       consider alternative treatments that may permit the IRS to reduce the tolerances
       established for the existing procedures. If the tolerance level can be decreased, the result
       will be a net increase in the coverage for addressing this issue with taxpayers who appear
       to have an unreported self-employment tax liability.
Recommendation 2: Initiate a program to correspond with the 11,700 taxpayers we
identified who filed a Tax Year 2012 return with qualifying self-employment income where no
tax was paid and who appear to not be exempt from paying self-employment tax to obtain a
Schedule SE and ensure that the proper amount of self-employment tax is assessed.
       Management’s Response: The IRS did not agree with this recommendation. IRS
       management stated that initiating correspondence with the identified group of taxpayers
       will result in costs that exceed the potential tax to be recovered. This would not be a
       prudent use of limited resources. However, the IRS responded that it will consider
       cost-effective alternatives to provide for optimal coverage at the time the returns are
       processed.
       Office of Audit Comment: Although the IRS did not agree with our
       recommendation, its proposed alternative corrective action is responsive to the
       recommendation.




                                                                                           Page 11
                   All Individual Tax Returns Filed Electronically in the 2013 Filing
                    Season Were Processed Using the Modernized e-File System



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS’s MeF system received, processed, and
posted individual tax return information timely, accurately, and effectively. To accomplish our
objective, we:
I.      Determined if the MeF system was able to process all tax returns received into the system
        during the 2013 Filing Season.
        A. Obtained and analyzed IRS MeF processing and performance statistics on the number
           of tax returns accepted and rejected.
        A. Analyzed MeF system statistics obtained by TIGTA’s Strategic Data Services1 for
           accepted and rejected tax returns.
II.     Determined if the MeF system accurately processed tax returns and timely provided
        information to IRS downstream tax return processing systems.
        A. Obtained weekly extracts of tax returns processed through the MeF system from the
           TIGTA Strategic Data Services.
        B. Obtained National Account Profile2 data from TIGTA’s Data Center Warehouse3 to
           verify taxpayer and dependent names and dates of birth.
        C. Reviewed a statistically valid sample of 560 of the 117,995,527 tax returns received
           by the MeF system (including both accepted and rejected returns) between
           January 30, 2013, and May 4, 2013.4 We used stratified sampling to select 40 tax
           returns each week. We evaluated the 560 tax returns to ensure that the tax returns
           were rejected or accepted correctly and the tax return accurately and timely posted to
           the IRS Individual Master File.5 We used our contract statistician to develop a proper
           sampling plan and sample size.
             1. Determined if tax return acknowledgements were accurate and timely.


1
  TIGTA’s Strategic Data Services is responsible for managing and retrieving IRS data, detecting unauthorized
accesses to IRS computer systems, and detecting other computer crimes within the IRS.
2
  A compilation of selected entity data from the IRS Master Files, which are the databases that store various
taxpayer information. The National Account Profile includes all valid and invalid taxpayer entity information.
3
  A collection of IRS databases containing various types of taxpayer account information that is maintained by
TIGTA for the purpose of analyzing data for ongoing audits.
4
  Our sample included all Forms 1040 received by the IRS, including prior year tax returns.
5
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                          Page 12
                   All Individual Tax Returns Filed Electronically in the 2013 Filing
                    Season Were Processed Using the Modernized e-File System



             2. Tracked tax returns through the IRS’s tax return processing system using the
                IRS’s Integrated Data Retrieval System6 to determine if tax returns were posting
                correctly to the Individual Master File.
             3. Based on the results of our statistical sample, we expanded our analysis to review
                all 94,947 taxpayers who claimed qualifying self-employment income but did not
                pay self-employment tax and for whom there was no indication that they were
                exempt from paying the tax.
        D. Reviewed a statistically valid sample of 100 of the 23,108 prior year tax returns
           rejected by the MeF system between January 30, 2013, and May 4, 2013, to ensure
           that the tax returns were correctly recorded in the IRS’s data systems.
Data Reliability
We reviewed MeF system documentation obtained from the IRS’s Information Technology
operation. We compared the data received from the TIGTA Strategic Data Services to the
documentation to ensure that the data were in the expected format and fields contained expected
data. We also reviewed the data received for logical errors such as inappropriate dates. In
addition, we used the IRS’s Integrated Data Retrieval System to validate the accuracy of the
information contained in our extracts of tax returns accepted and rejected by the MeF system.
We compared the information contained in the extract to information contained on the tax return
as part of our analysis of the accuracy of MeF system processing. The data are considered
sufficiently reliable for our audit purposes.
Sampling Techniques
Statistical sample of tax returns received between January 30, 2013, and May 4, 2013 – We
selected a statistically valid stratified sample of 560 tax returns from the 117,995,527 tax returns
received by the MeF system (including both accepted and rejected returns) between
January 30, 2013, and May 4, 2013. Our sample included all Forms 1040, U.S. Individual
Income Tax Return, received by the IRS, including prior year tax returns. We used our contract
statistician to develop a proper sampling plan and sample size. Our sample size was based on a
confidence level of 95 percent, an expected error rate of 50 percent, and a precision factor of
±5 percent. We selected our sample by randomly selecting 40 tax returns from the tax returns
received each week for 14 weeks. Our sample included Form 1040, Form 1040A (U.S.
Individual Income Tax Return), and Form 1040EZ (Income Tax Return for Single and Joint
Filers With No Dependents).




6
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 13
                All Individual Tax Returns Filed Electronically in the 2013 Filing
                 Season Were Processed Using the Modernized e-File System



Statistical Sample of 100 prior year tax returns rejected by the MeF system – We selected a
statistically valid random sample of 100 of the 23,108 prior year tax returns that appeared to
have incorrect information recorded in the IRS’s TRDB. Our sample size was based on a
confidence level of 95 percent, an expected error rate of 50 percent, and a precision factor of
±10 percent.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the controls in place to ensure that 1) tax
returns were properly accepted or rejected by the MeF system, 2) tax returns were properly
accounted for in the MeF system, and 3) tax returns were properly recorded in downstream
processing systems and the Individual Master File. We tested these controls by reviewing and
analyzing relevant documents and data.




                                                                                             Page 14
               All Individual Tax Returns Filed Electronically in the 2013 Filing
                Season Were Processed Using the Modernized e-File System



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Kyle R. Andersen, Director
Deann L. Baiza, Director
Roy E. Thompson, Audit Manager
Glory Jampetero, Lead Auditor
Sandra L. Hinton, Senior Auditor
Jane G. Lee, Senior Auditor
Steve D. Stephens, Senior Auditor
James M. Allen, Information Technology Specialist




                                                                                     Page 15
              All Individual Tax Returns Filed Electronically in the 2013 Filing
               Season Were Processed Using the Modernized e-File System



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Support, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, E-File Service, Wage and Investment Division SE:W:CAS:SP:ES
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
   SE:W:S:PEI




                                                                                  Page 16
                  All Individual Tax Returns Filed Electronically in the 2013 Filing
                   Season Were Processed Using the Modernized e-File System



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
       Increased Revenue – Potential; $1,441,457 in self-employment tax that was not paid by
        11,700 taxpayers (see page 9).

Methodology Used to Measure the Reported Benefit:
Using the IRS’s Individual Return Transaction File,1 we identified 179,362 Tax Year 2012
taxpayers who filed tax returns through the MeF system from January 27, 2013, through June 29,
2013, and claimed Schedule C income totaling $434 or more but did not pay self-employment
tax.2 Using this same data, we identified 52,395 taxpayers who indicated on their Schedule C
that they were statutory employees and were exempt from paying self-employment tax.
Using the Individual Master File,3 we identified 32,020 taxpayers who had an approved
Form 4361, Application for Exemption From Self-Employment Tax for Use by Ministers,
Members of Religious Orders and Christian Science Practitioners, or Form 4029, Application
for Exemption From Social Security and Medicare Taxes and Waiver of Benefits,
self-employment tax exemption. We determined that the remaining 94,947 taxpayers with
Schedule C income and no tax exemption claimed Schedule C income totaling $1,129,282,797.
We used the Form 1040 Schedule SE, Self-Employment Tax, to compute the self-employment tax
due for each of the 94,947 taxpayers we identified. Using this calculation, we estimate that the
94,947 taxpayers should have paid $116,852,979 in self-employment tax.
To identify those taxpayers who would not be identified by the IRS Error Resolution Program,
we identified taxpayers with self-employment income below the established dollar tolerance.
We determined that 33,436 of the 94,947 taxpayers claimed qualifying self-employment income



1
  The Individual Return Transaction File contains all edited, transcribed, and error-corrected data from the
Form 1040, U.S. Individual Income Tax Return, series and related forms and schedules for the current processing
year and two prior years.
2
  Individuals who earn less than $434 in net self-employment income are not required to pay self-employment tax.
3
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                         Page 17
                   All Individual Tax Returns Filed Electronically in the 2013 Filing
                    Season Were Processed Using the Modernized e-File System



under the dollar tolerance. The 33,436 taxpayers claimed a total of $35,311,099 in qualifying
self-employment income and potentially owe $4,101,847.
We also used the Individual Tax Return Transaction file located on the TIGTA Data Center
Warehouse4 to determine how many of the 94,947 taxpayers also filed a Schedule F, Profit or
Loss From Farming, or Schedule E, Supplemental Income and Loss. Our analysis identified
21,736 of the 33,436 taxpayers who filed a Schedule F or Schedule E in addition to claiming
Schedule C income. These taxpayers claimed $23,305,359 in self-employment income. Because
the IRS Error Resolution Program reviews tax returns for Schedules F and E income when
computing net self-employment tax, we removed these 21,736 taxpayers from our analysis.
The remaining 11,700 taxpayers would not have been identified for additional review by the IRS
Error Resolution Program because the self-employment income claimed was below the dollar
tolerance and there was no Schedule F or Schedule E filed. These taxpayers claimed qualifying
self-employment income totaling $12,005,740 and potentially owe a total of $1,441,457 in
self-employment tax.

Type and Value of Outcome Measure:
       Reliability of Information – Actual; 23,108 prior year tax returns with an incorrect tax
        period recorded in the TRDB5 (see page 5).

Methodology Used to Measure the Reported Benefit:
We analyzed a statistically valid sample of 100 of the 23,108 prior year tax returns rejected by
the MeF system between January 30, 2013, and May 4, 2013. Our analysis showed that all
100 tax returns were incorrectly recorded in the TRDB as Tax Year 2012 tax returns—93 were
Tax Year 2011 and seven were for Tax Year 2010 tax returns. Based on the results of our
review, we estimate that all 23,108 prior year tax returns rejected by the MeF system were
incorrectly recorded in the TRDB.




4
  A collection of IRS databases containing various types of taxpayer account information that is maintained by
TIGTA for the purpose of analyzing data for ongoing audits.
5
  The TRDB contains tax return source information for all electronically filed tax returns.
                                                                                                          Page 18
   All Individual Tax Returns Filed Electronically in the 2013 Filing
    Season Were Processed Using the Modernized e-File System



                                                         Appendix V

Management’s Response to the Draft Report




                                                               Page 19
                   All Individual Tax Returns Filed Electronically in the 2013 Filing
                    Season Were Processed Using the Modernized e-File System




The 11,700 taxpayers estimated by the Treasury Inspector General for Tax Administration (TIGTA) as being
affected by the self-employment tax issue have an average tax understatement of approximately ***2*** per
taxpayer1. With limited resources, it is necessary to establish threshold tolerances for issues that require
review and action by employees to ensure their time is used productively. The cases identified by the
TIGTA fell below the established tolerance. We will explore alternative treatment streams that may permit
us to reduce the costs associated with correspondence to taxpayers on this issue.

In response to questions posed on another audit, the average cost of a correspondence examination was
calculated to be ***2***. We do not agree with the TIGTA's recommendation to implement a
correspondence program with the taxpayers who appear not to be exempt from self-employment tax and did
not report a self- employment tax liability. This issue is already addressed when the amount of tax at stake
exceeds the established tolerance; pursuing the issue when the potential recovery by the government is less
than the cost of taking action is not a prudent use of limited resources.

Attached are our comments on your recommendations. If you have any questions, please contact me, or a
member of your staff may contact Paul Mama, Director, Submission Processing, Wage and Investment
Division, at (859) 669-5554.

Attachment




1.
 **********2*************
2
 TIGTA, Audit 201240016, Effectiveness of the IRS's Verification of Alimony Paid and Alimony
Received


                                                                                                   Page 20
All Individual Tax Returns Filed Electronically in the 2013 Filing
 Season Were Processed Using the Modernized e-File System




                                                            Page 21
All Individual Tax Returns Filed Electronically in the 2013 Filing
 Season Were Processed Using the Modernized e-File System




                                                            Page 22
